@OQCKLE

2311 Douglas Street . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1114

NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,
NATIONAL BASKETBALL ASSOCIATION, NATIONAL
FOOTBALL LEAGUE, NATIONAL HOCKEY LEAGUE,
OFFICE OF THE COMMISSIONER OF BASEBALL,
doing business as MAJOR LEAGUE BASEBALL,
Petitioners,
v.
NEW JERSEY THOROUGHBRED
HORSEMEN’S ASSOCIATION, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.i(h), I certify that the RESPONDENT’S BRIEF IN
OPPOSITION TO PETITION FOR CERTIORARI in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 8007 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Loo OQudiawh, Chk

Affiant

    

GENERAL MOTARY-State of Habraska
RENEE J. GOSS

My Comm. Exp. September's, 2023

 

 

Notary Public
